         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Evaluation Report




       EPA Needs an Agency-Wide Plan
       to Provide Tribal Solid Waste
       Management Capacity Assistance
       Report No. 11-P-0171

       March 21, 2011
Report Contributors:                                Ganesa Curley
                                                    Jeffrey Harris
                                                    Rebecca Matichuk
                                                    Thane Thompson




Abbreviations

AIEO          American Indian Environmental Office
EPA           U.S. Environmental Protection Agency
FTE           Full-time equivalent
FY            Fiscal year
GAP           Indian General Assistance Program
GPRA          Government Performance and Results Act
IHS           Indian Health Service
OECA          Office of Enforcement and Compliance Assurance
OIG           Office of Inspector General
OSWER         Office of Solid Waste and Emergency Response
RCRA          Resource Conservation and Recovery Act of 1976
w/STARS       Web Sanitation Tracking and Reporting System


Cover photos: 	 from left: A typical dump site usually found in remote forested areas within
                reservation boundaries; an open dump site on tribal lands in California; a
                reservation open dump site that has caught fire. (EPA photos)
                       U.S. Environmental Protection Agency 	                                               11-P-0171
                                                                                                        March 21, 2011
                       Office of Inspector General


                       At a Glance
                                                                            Catalyst for Improving the Environment


Why We Did This Review              EPA Needs an Agency-Wide Plan to Provide Tribal
We conducted this evaluation        Solid Waste Management Capacity Assistance
to determine whether the U.S.
Environmental Protection             What We Found
Agency’s (EPA’s) tribal solid
waste management activities         EPA cannot determine whether its efforts are assisting tribal governments in
are helping tribes develop the      developing the capacity to manage solid waste or reduce the risks of open dumps
capacity they need to eliminate     in Indian country. EPA’s performance measures do not assess whether the
open dumps.                         Agency’s efforts are effective in building solid waste management capacity in
                                    Indian country. EPA also lacks internal data controls to track the status of open
Background                          dumps.
Illegal dumping of solid waste      EPA does not have an Agency-wide plan that defines the roles and responsibilities
poses significant health and        of the EPA program offices and regions. EPA also lacks internal controls that
environmental risks to the          hold these offices accountable for providing consistent solid waste management
members of 564 federally            assistance to tribes. The lack of a single, Agency-wide plan results in poor
recognized Indian tribes            coordination and limited oversight, and may lead to an ineffective use of resources.
throughout the country.             As a result, EPA cannot (1) ensure that consistent solid waste management
Currently, there are nearly         assistance is provided, (2) accurately determine the risks of open dumps, or
4,000 reported open dumps           (3) determine whether efforts are effective nationwide.
located on tribal lands. EPA
has been working for over            What We Recommend
25 years to help tribes develop
the capacity to manage solid        We recommend that the EPA Deputy Administrator develop an Agency-wide
waste and enforce against           plan to implement consistent and effective tribal solid waste management
illegal dumping. This work is       capacity assistance. We recommend that this single plan outlines the roles and
facilitated through the Office of   responsibilities of EPA program offices and regions, and identifies the Agency
Solid Waste and Emergency           resources required for these activities. The plan should also implement output and
Response, the Office of             outcome measures that track how consistently and effectively EPA activities are
Enforcement and Compliance          provided for tribes. Further, this plan should include (1) internal controls to
Assurance, and the American         ensure consistent data collection, (2) a process to ensure coordination between
Indian Environmental Office.        EPA program offices and regions, and (3) a timeline specifying when the
                                    activities and outcomes outlined in the plan are expected to be accomplished.

For further information,            The Agency did not agree with our conclusion or most of the recommendations
contact our Office of               in the report. The Agency did not agree to develop a national plan to manage and
Congressional, Public Affairs
and Management at
                                    implement tribal solid waste management capacity assistance. EPA did agree to
(202) 566-2391.                     identify resources required for providing solid waste assistance and to improve
                                    program office coordination. However, EPA rejected recommendations aimed at
The full report is at:
www.epa.gov/oig/reports/2011/
                                    improving data collection, outcome measures, and internal management controls.
20110321-11-P-0171.pdf              These recommendations will remain unresolved until such time as the Office of
                                    Inspector General and EPA can reach agreement on required actions.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                            THE INSPECTOR GENERAL



                                         March 21, 2011

MEMORANDUM

SUBJECT:	              EPA Needs an Agency-Wide Plan to Provide Tribal Solid Waste
                       Management Capacity Assistance
                       Report No. 11-P-0171


FROM:                  Arthur A. Elkins, Jr.
                       Inspector General

TO:                    Bob Perciasepe
                       Deputy Administrator


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated direct labor and travel costs for this report are $364,610.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You are also required to submit a corrective action plan for
agreed-upon actions, including milestone dates, within 120 calendar days. The OIG may report
recommendations left unresolved after 180 days to Congress in our Semiannual Report, as
authorized by Office of Management and Budget Circular A-50. Your response will be posted
on the OIG’s public website, along with our memorandum commenting on your response.
Your response should be provided as an Adobe PDF file that complies with the accessibility
requirements of section 508 of the Rehabilitation Act of 1973, as amended. The final response
should not contain data that you do not want to be released to the public; if your response
contains such data, you should identify the data for redaction or removal. We have no
objections to the further release of this report to the public. We will post this report to our
website at http://www.epa.gov/oig.

If you or your staff have any questions, please contact Wade Najjum at (202) 566-0832 or
najjum.wade@epa.gov, or Jeffrey Harris at (202) 560-0831 or harris.jeffrey@epa.gov.
EPA Needs an Agency-Wide Plan to Provide Tribal                                                                             11-P-0171
Solid Waste Management Capacity Assistance


                                  Table of Contents 


Chapters
   1	   Introduction ........................................................................................................      1


                Purpose .......................................................................................................    1     

                Background .................................................................................................       1     

                Prior Audit Reports ......................................................................................         4     

                Noteworthy Achievements ...........................................................................                4     

                Scope and Methodology .............................................................................                5     


   2	   EPA Cannot Determine Whether Solid Waste Management 

        Activities Are Effective ......................................................................................            7


                EPA Measures Are Not Sufficient to Determine Whether Tribes Are 

                      Receiving Consistent and Effective Capacity Assistance................                                       7

                EPA Cannot Accurately Track the Status of Open Dumps..........................                                    10 

                EPA Does Not Have an Agency-Wide Plan to Provide 

                      Solid Waste Management Capacity Assistance ..............................                                   13 

                Conclusions.................................................................................................      14 

                Recommendations ......................................................................................            15 

                Agency Comments and OIG Evaluation ......................................................                         15 


   Status of Recommendations and Potential Monetary Benefits..............................                                        16 




Appendices
   A    Agency Comments and OIG Assessment........................................................                                17 


   B	   Distribution ........................................................................................................     25 

                                             Chapter 1

                                              Introduction
Purpose
                  The overall objective of this review was to determine whether the U.S.
                  Environmental Protection Agency’s (EPA’s) tribal solid waste management
                  activities are helping tribes develop the management and enforcement capacity
                  they need to eliminate open dumps.

Background
                  Open dumping is the depositing of solid waste anywhere (on land or in water)
                  other than an approved solid waste facility. Open dumping may pose significant
                  health and environmental risks to the members of 564 federally recognized Indian
                  tribes1 throughout the country. Public health and environmental concerns from
                  open dumping of solid waste may include the degradation of tribal resources, an
                  increased incidence of disease, food and drinking water contamination, and air
                  pollution. The number of reported open dumps located throughout Indian country
                  has grown from approximately 600 in 1994 to nearly 4,000 in 2010.2

                  Tribal governments, as well as the federal government, are responsible for
                  regulating the environment and protecting the health, welfare, and resources of
                  tribal members on reservations and other tribal lands. However, tribal
                  governments frequently lack the infrastructure, management capacity, or
                  economic means to sustain private or public waste-removal services. Open
                  dumping can come from people who reside outside the tribal community and
                  dispose of their waste on tribal lands to avoid regulated dumping fees.
                  Additionally, the “checkerboard” land status of many reservations and tribal lands
                  can impact whether a tribe can manage waste or enforce against illegal dumping.
                  For example, EPA states that tribes often find it difficult to regulate the waste
                  management activities on lands owned by nonmembers within the tribal
                  community. This inability to manage waste or enforce against illegal dumping
                  could result in open dumps.
1
  For the purposes of this report only, the terms “tribal government(s)” and “tribe(s)” refer to federally recognized
tribal governments within the contiguous United States. Tribal governments are recognized by the U.S. Department
of the Interior (73 Federal Register 18553 (April 4, 2008)).
2
  This report refers to “Indian country” as defined in 18 U.S.C. §1151, meaning: (a) all land within the limits of any
Indian reservation under the jurisdiction of the U.S. government, notwithstanding the issuance of any patent, and
including rights-of-way running through the reservation; (b) all dependent Indian communities within the borders of
the United States, whether within the original or subsequently acquired territory thereof, and whether within or
without the limits of a state; and (c) all Indian allotments, the Indian titles to which have not been extinguished,
including rights-of-way running through the same. Various federal statutes may use or define other terms (e.g.,
reservations) that will control the applicability of a particular statute in Indian country.


11-P-0171                                                                                                         1
            Solid Waste Regulatory Authority in Indian Country

            The Resource Conservation and Recovery Act of 1976 (RCRA), amending the
            Solid Waste Act, established programs governing the disposal of solid and
            hazardous waste. Under RCRA Subtitle D (Solid Waste), EPA established
            national standards for solid waste disposal and the operation of solid waste
            landfills. Facilities not meeting federal standards are considered open dumps and
            should be closed or upgraded using regulatory authorities. However, EPA is not
            authorized under RCRA to implement solid waste programs for states or tribes.

            States are responsible for permitting and monitoring municipal and nonhazardous
            waste landfills. States have also developed EPA-reviewed programs that apply to
            all operators of sites within the state. However, EPA explained that state programs
            generally do not apply in Indian country. According to EPA, RCRA defines tribes
            as “municipalities”; therefore, tribal governments are ineligible to be treated as
            states. As a result, EPA has no authority to require, operate, or enforce solid waste
            programs for tribes; EPA can only assist tribes in developing solid waste
            programs under their own tribal sovereignty.

            RCRA does provide EPA with two enforcement authorities to address open
            dumps. Section 7003 authorizes EPA to abate specific conditions found at a site
            that may pose an imminent and substantial endangerment. Section 4005 (c)(2)
            allows EPA to enforce solid waste regulations at facilities with household
            hazardous waste or small quantity generator waste in any state that has not
            adopted an adequate program.

            EPA’s Tribal Solid Waste Management Activities

            As discussed above, EPA does not have the authority to implement or enforce
            solid waste programs in Indian country. As a result, the Agency can only assist
            tribal governments in developing integrated solid waste management programs.
            EPA can also pursue direct enforcement to address specific incidences of open
            dumping. Within EPA, the Office of Solid Waste and Emergency Response
            (OSWER), the Office of Enforcement and Compliance Assurance (OECA), and
            the American Indian Environmental Office (AIEO) assist EPA regions in
            implementing these programmatic activities provided for tribal clients.

                   Office of Solid Waste and Emergency Response

                   OSWER provides technical assistance to help tribes develop solid waste
                   programs. This technical assistance includes training, outreach materials,
                   and educational resources. OSWER also supports regional EPA staff in
                   addressing the development of tribal solid waste programs. EPA informed
                   us that 7.5 full-time equivalents (FTEs) have been allocated nationally to
                   the regions since fiscal year (FY) 1999. The 7.5 FTEs have been divided
                   among the regions to close open dumps, help tribes develop integrated



11-P-0171                                                                                    2
                   waste management plans, provide regulatory and program assistance, and
                   make site-specific flexibility requests for proposed tribal lands. Further,
                   OSWER facilitates cross-program and federal agency partnership efforts
                   to integrate activities, provide grant funding, and leverage resources to
                   address solid waste management in Indian country.

                   Office of Enforcement and Compliance Assurance

                   OECA provides compliance and technical assistance to help tribal
                   governments meet federal environmental regulations. Assistance focuses
                   on waste enforcement capacity, including solid waste code development
                   and enforcement training. OECA also pursues enforcement for specific
                   dumping incidences when a responsible party is identified. From FY 2008
                   through FY 2010, OECA issued the National Indian Country Compliance
                   Assurance and Enforcement Priority: Illegal Dumping focus area (OECA
                   Indian Priority). Under this priority, regions provide compliance assistance
                   to improve the enforcement capacity of tribes and pursue enforcement
                   options to reduce risks from open dumps.

                   American Indian Environmental Office

                   AIEO oversees the Indian General Assistance Program (GAP). GAP
                   provides tribes with grant funding for planning, developing, and
                   establishing environmental protection programs. GAP is the primary and
                   most significant source of EPA funding to support solid waste activities in
                   Indian country. In particular, GAP can be used to implement solid and
                   hazardous waste programs on tribal lands. In FY 2009, GAP received
                   about $62 million to assist the 564 federally recognized tribes. On
                   average, each tribe receives about $110,000 per year to build management
                   capacity across multimedia environmental programs. With respect to GAP
                   grants, in most cases tribes give priority to capacity building for drinking
                   water and wastewater activities, rather than solid waste management.

            EPA’s Responsibilities Under the Indian Lands Open Dump Cleanup
            Act of 1994

            The Indian Lands Open Dump Cleanup Act of 1994 (Open Dump Act) directed
            the Indian Health Service (IHS) to (1) identify the location of open dumps on
            Indian and Alaska Native lands, (2) assess the relative health and environmental
            hazards posed by such dumps, and (3) provide financial and technical assistance
            to Indian tribal governments and Alaska Native entities to close such dumps in
            compliance with applicable federal or Indian tribal government standards and
            regulations. The act also directed IHS to work cooperatively with EPA in the
            study and inventory of open dumps on Indian and Alaska Native lands. This work
            includes listing the geographic location of all open dumps, evaluating the contents
            of each dump, and assessing the relative severity of the threat to public health and



11-P-0171                                                                                   3
                 the environment posed by each dump. In 1994, Congress found at least 600 open
                 dumps on Indian and Alaska Native lands.

Prior Audit Reports
                 Prior EPA Office of Inspector General (OIG) reports have evaluated Agency
                 waste management and capacity development efforts in Indian country. In Report
                 No. 2004-P-00003, Immediate Action Needed to Address Weaknesses in EPA
                 Efforts to Identify Hazardous Waste Sites in Indian Country, issued January 30,
                 2004, we found that the Agency’s efforts to inventory hazardous waste sites on
                 tribal lands needed immediate action. Specifically, the Agency’s efforts had been
                 substantially delayed due to project mismanagement issues. Inventory-related
                 information needed to manage its Superfund activities in Indian country had not
                 been defined. The Agency also had not developed a detailed plan for validating,
                 managing, storing, or updating the baseline inventory. OSWER concurred with
                 our recommendations to provide oversight, define specific program needs, and
                 develop a detailed plan for the maintenance of its inventory.

                 In Report No. 2007-P-00022, Promoting Tribal Success in EPA Programs, issued
                 May 3, 2007, we noted that innovative practices maximize the effectiveness of
                 tribal environmental programs. We recommended that the EPA Assistant
                 Administrator for Water work with tribes to promote innovative practices. The
                 recommended practices included collaboration and partnerships, accessible
                 education and outreach materials, and identification of economic resources and
                 funding alternatives. The Agency agreed that the recommendations we outlined
                 would lead to an improved level of tribal successes.

                 In Report No. 08-P-0083, Framework for Developing Tribal Capacity Needed in
                 the Indian General Assistance Program, issued February 19, 2008, we found that
                 many tribes had not developed long-term plans describing how they would use
                 GAP funding to build environmental program capacity. Further, we found that
                 EPA had not tracked the progress of the plans that were in place. EPA also did not
                 consider tribes’ capacity needs and prior progress when allocating funding. We
                 recommended that the EPA Assistant Administrator for Water develop and
                 implement an overall framework for achieving capacity, require regions to work
                 with tribes to develop environmental plans that reflect intermediate and long-term
                 goals, and revise the manner in which GAP funding was distributed to tribes. EPA
                 concurred with these recommendations.

Noteworthy Achievements

                 EPA facilitates the Tribal Solid Waste Interagency Workgroup3 to coordinate
                 federal agency assistance. This assistance helps tribes to comply with solid waste
3
  The workgroup also includes representatives from the U.S. Department of the Interior, Bureau of Indian Affairs;
the U.S. Department of Health and Human Services, Indian Health Service; the U.S. Department of Agriculture,
Rural Development; the U.S. Department of Housing and Urban Development; and the U.S. Department of Defense.


11-P-0171                                                                                                    4
                    regulations, establish integrated waste management programs, and close open
                    dumps. Federal assistance is provided through the Tribal Solid Waste
                    Management Assistance Project in the form of grants, cooperative agreements,
                    loans, technical assistance, and use of equipment. Since FY 1999, the workgroup
                    has funded over 187 projects valued at approximately $23 million.

                    EPA Regions 5, 8, and 9 help tribes by leveraging technical assistance and
                    funding across EPA programs and other federal agencies. EPA Regions 5, 8, and
                    9 have also developed innovative resources and tools to help tribes develop and
                    implement solid waste programs. For example, a Region 5 resource guide
                    identifies federal funding and technical assistance available to support
                    construction of waste collection and disposal infrastructure on tribal lands.4 The
                    Region 8 Sustainability Evaluation Tool helps tribes assess the long-term capacity
                    of their solid waste programs. The Region 9 Tribal Solid Waste Costing Tool
                    workbook helps tribes determine the economic feasibility and costs/user fees
                    associated with tribally operated collection services, transfer stations, and
                    landfills.

Scope and Methodology

                    We conducted this performance evaluation in accordance with generally accepted
                    government auditing standards. Those standards require that we plan and perform
                    the evaluation to obtain sufficient, appropriate evidence to provide a reasonable
                    basis for our findings and conclusions based on our objectives. We believe that
                    the evidence obtained provides a reasonable basis for our findings and
                    conclusions based upon our objectives. We conducted this evaluation from
                    November 2009 to September 2010.

                    The scope of this evaluation is limited to the authorities and responsibilities
                    delegated to EPA through RCRA, the Open Dump Act, and GAP.

                    To address our objectives, we reviewed relevant regulations, policies, strategies,
                    and guidance. These documents outline the federal government’s trust
                    responsibility to tribal governments, solid waste enforcement and funding
                    authorities, strategic measures, interagency agreements, and solid waste
                    management and enforcement activities in Indian country. We also reviewed
                    relevant open dump data, compliance assurance and enforcement data, and budget
                    information.

                    During this evaluation, we interviewed tribal solid waste program and
                    enforcement managers and staff in OSWER, OECA, AIEO, and EPA Regions 5,
                    8, and 9. We conducted roundtable discussions with environmental department
                    staff from tribes located within these regions. We also interviewed the associate
                    director of the Division of Sanitation Facilities Construction from IHS.

4
    EPA does not have the authority to fund construction or capital expenditures for tribes.


11-P-0171                                                                                             5
            We selected three EPA regions for this evaluation because it was not feasible to
            meet with all regions and federally recognized tribes. It was also not feasible to
            include Alaska Native Villages because of their unique environmental and solid
            waste management challenges, as well as their remote location. We selected EPA
            Regions 5, 8, and 9 because they represent a cross-section of urban, suburban, and
            rural dumping issues. The tribes in these regions are in varying stages of solid
            waste program development. More than 200 federally recognized tribes reside
            within EPA Regions 5 (35 tribes), 8 (27 tribes), and 9 (147 tribes). These three
            regions account for over 80 percent of all tribal lands within Indian country.




11-P-0171                                                                                 6
                                         Chapter 2

          EPA Cannot Determine Whether Solid Waste 

             Management Activities Are Effective 

                EPA cannot determine whether its activities are consistently or effectively
                assisting tribal governments to develop solid waste management capacity. EPA
                does not have sufficient performance measures that track whether tribes receive
                assistance that focuses on all the elements of a successful tribal solid waste
                program, or measures that assess whether the Agency’s efforts are improving
                tribes’ waste management capacity. EPA also cannot accurately determine the
                universe of open dumps or their associated risks. Finally, EPA does not have an
                Agency-wide plan that defines the roles and responsibilities of EPA program
                offices and EPA regions, and EPA has no internal controls that hold these offices
                accountable for providing consistent solid waste management assistance to tribes.
                As a result, EPA is unable to determine whether its efforts are reducing the
                environmental and human health risks posed by open dumps in Indian country.

EPA Measures Are Not Sufficient to Determine Whether Tribes
Are Receiving Consistent and Effective Capacity Assistance
                EPA has identified five elements5 of a successful tribal integrated solid waste
                management program:

                         1.   Solid waste management plans
                         2.   Solid waste codes, ordinances, or regulations
                         3.   Enforcement mechanisms
                         4.   Viable solid waste disposal options
                         5.   Community outreach and education

                According to EPA, the degree to which these elements are implemented typically
                indicates a tribe’s capacity to manage solid waste. However, EPA does not have
                measures to support and track tribes’ development and use of each program
                element. OSWER only monitors the solid waste management plan element, and
                OECA’s measures cannot determine whether compliance assistance is helping
                tribes develop solid waste codes and enforcement mechanisms. Without measures
                linked to each element, EPA cannot determine whether its efforts are improving
                solid waste management capacity in Indian country.




5
 EPA’s Tribal Decision-Maker’s Guide to Solid Waste Management discusses the five capacity elements in more
detail.


11-P-0171                                                                                                 7
                 OSWER Strategic Targets Do Not Adequately Measure Tribes’ Solid
                 Waste Management Capacity

                 Under Goal 3 of EPA’s FY 2006–2011 Strategic Plan, OSWER is expected to
                 achieve the following tribal solid waste targets by FY 2011 over the FY 2006
                 baseline:

                          1.	 Increase by 118 the number of tribes covered by an integrated waste
                              management plan.
                          2.	 Close, clean up, or upgrade 138 open dumps in Indian country and on
                              other tribal lands.

                 OSWER’s current strategic targets only include output measures that track the
                 level of activity that will be provided over a period of time, and do not connect to
                 outcome measures that track the intended results of carrying out its program or
                 activities.6 For instance, OSWER’s first target counts the number of solid waste
                 management plans adopted by tribes, regardless of whether the plans have been
                 implemented. Even though having a plan is the first capacity element of a
                 successful solid waste management program, this target neither determines
                 whether the Agency’s efforts are consistent and effective in developing successful
                 plans nor tracks whether the plans are effective tools for managing solid waste
                 after they are implemented by tribes.

                 OSWER’s second target focuses on closing or upgrading dumps. However, this
                 target does not determine whether tribes have developed the management capacity
                 to prevent new open dumps from occurring or to prevent former dumps from
                 reappearing on tribal lands. This target is also not aligned with the Agency’s
                 resources and authority. EPA’s primary source of funding for solid waste
                 activities in Indian country is GAP. However, GAP provides tribes with grant
                 funding for planning, developing, and implementing solid and hazardous waste
                 programs on tribal lands. Further, the Open Dump Act directed IHS to be the lead
                 federal agency to provide financial and technical assistance to close these sites,
                 while directing EPA to assist IHS in the study and inventory of open dump sites
                 on tribal lands. Although closing and upgrading open dumps reduces the
                 environmental and health risks, OSWER’s primary responsibility is to provide
                 technical assistance to help tribes develop solid waste programs.

                 One of the regions we interviewed suggested additional measures to OSWER to
                 assess tribal capacity, but these measures have yet to be adopted. Another region
                 we interviewed told us that OSWER’s goal of increasing the number of tribes
                 covered by a plan would be difficult because the measure is outside the control of

6
  The 1993 Government Performance and Results Act (GPRA) specifically defines performance measures as
indicators, statistics, or metrics used to gauge program performance. GPRA also describes outcome measures as the
intended result of carrying out a program or activity and output measures as the level of activity that will be
provided over a period of time, including a description of the characteristics (e.g., timeliness) established as
standards for the activity.


11-P-0171                                                                                                     8
                  the regional staff. While regional staff can encourage tribes to develop integrated
                  waste management plans, the staff stated that the plans are not required and must
                  be voluntarily developed by each tribe. According to OSWER, the current
                  strategic targets were created because the results can be quantified. However,
                  without measures that track all the elements of a waste management program and
                  the results of the Agency’s efforts, OSWER cannot determine whether EPA’s
                  efforts are effectively developing solid waste management capacity on tribal
                  lands.

                  OECA Measures Cannot Determine Tribal Enforcement Capacity or
                  Environmental Outcomes

                  The OECA FY 2008–2010 Indian Priority directed regions to use compliance
                  assistance to improve the solid waste enforcement capacity of tribes and
                  enforcement to reduce open dump risks. To meet these goals, OECA established
                  two performance measures:

                      1.	 Provide solid and/or hazardous waste compliance/technical assistance to
                          20 percent of tribes each year in FYs 2008, 2009, and 2010.

                      2.	 By the end of each fiscal year, EPA will conduct 10 enforcement
                          investigations to determine the appropriateness of enforcement actions to
                          address specific incidents of illegal open dumping in Indian country.

                  Regions provide compliance and technical assistance to emphasize tribes’
                  development of waste management plans with solid waste codes and enforcement
                  programs. In FYs 2008 and 2009, 239 and 234 tribes, respectively, received solid
                  or hazardous waste compliance or technical assistance on one or more occasions.
                  However, OECA’s assistance measure only tracks the number of tribes
                  “reached.”7 This output measure does not track how many of these tribes actually
                  achieved the goal of developing codes or enforcement programs. This measure
                  also does not identify the compliance activities, tools, or technical assistance
                  regions should provide to help tribes achieve this goal. As a result, OECA cannot
                  determine which activities are successful and use its resources to support the most
                  effective compliance activities.

                  Waste investigations help EPA work with tribes to identify open dumps,
                  responsible parties, and enforcement options. From FY 2008 through FY 2009,
                  EPA regions conducted 20 waste investigations.8 Like the OSWER measures,

7
  The OECA Guide for Addressing Environmental Problems: Using an Integrated Strategic Approach (March 2007)
states that both outcome and output measures should be established for any priority area. The guide defines outputs
as product or service delivery targets that can include the number of tools developed, clients reached, and activities
conducted. Outcome measures assess changes in understanding, behavior, or environmental condition resulting from
outputs. Outcome measures serve as the primary indicator of progress toward achieving the goal.
8
  “Investigation” was defined as region outreach to tribes to identify dumping incidents in which there may be
responsible parties. Based on the type of waste and media potentially affected, regions were to consider enforcement
options to accomplish waste removal.


11-P-0171                                                                                                         9
                  OECA’s output measure only counts the number of waste investigations
                  conducted. OECA does not measure any resulting improvements in the ability of
                  tribes to enforce against illegal dumping, compliance, or environmental
                  conditions. Our review of the outcomes of EPA waste investigations conducted
                  during FYs 2008–2009 found that:

                        	 Six investigations did not provide sufficient information for EPA to
                           pursue a waste investigation for illegal dumping or open dump sites for
                           which there may be a responsible party.
                        	 Two investigations conducted could not identify or locate responsible
                           parties for the purposes of analyzing enforcement options.
                        	 Six investigations resulted in site compliance or cleanup without EPA
                           enforcement. As a result of these investigations, four tribal governments
                           were able to initiate or work directly with responsible federal agencies
                           and other parties for waste removal or disposal.
                        	 Four investigations analyzed EPA enforcement options and resulted in
                           the cleanup of one dump site by a tribal government.
                        	 Two investigations yielded both a responsible party and sufficient
                           evidence for EPA to take direct enforcement actions under
                           environmental statutes. Of these, EPA enforcement action resulted in the
                           elimination of 12,678 cubic yards of annual solid waste discharge.

                  In addition to output measures, EPA needs outcome measures to determine
                  whether its assistance is developing the necessary solid waste management
                  capacity in Indian country to prevent and reduce the risks from open dumps.
                  Currently, EPA is relying on output measures as proxies for outcomes to
                  determine whether its activities are effective. However, OSWER and OECA
                  output measures cannot determine whether EPA’s tribal solid waste management
                  efforts are effective. Further, OSWER’s measures do not capture or track how
                  OECA compliance and enforcement activities directly contribute to waste
                  management plans and open dump closures. Unless EPA improves its measures,
                  the Agency cannot ensure that resources are used to provide consistent and
                  effective assistance for tribes.

EPA Cannot Accurately Track the Status of Open Dumps
                  The Open Dump Act directed EPA to work cooperatively with IHS to study and
                  inventory open dump sites on Indian lands. EPA has partnered with IHS to
                  maintain the web Sanitation Tracking and Reporting System (w/STARS)9 for
                  collecting and archiving open dump data.10 EPA uses this database to track
                  progress toward meeting its strategic target of closing, cleaning up, or upgrading
                  open dump sites in Indian country. As of April 2010, the w/STARS database

9
 The Operation and Maintenance Data System module of w/STARS archives the open dump data.
10
  Open dump data include (1) location of dump sites, (2) status (i.e., closed, cleaned up, remediated, open, and
active), and (3) health hazard information.


11-P-0171                                                                                                          10
            reported 3,884 sites. The distribution of the open dump universe across the EPA
            regions is shown in figure 1.

            Figure 1: Distribution of w/STARS open dump sites across EPA regions
                                         Unspecified    Region 2

                                            131           20
     Region 4
                           Region 10                                17
                             677                                         Region 5
                                                                           186

                                                                               Region 6
                                                                                 516


                                                                                  Region 7
                                                                                    65


                                                                                 Region 8
                                                                                   396




                             Region 9

                              1876


             Source: IHS w/STARS database, as of April 2010. The "Unspecified" category represents 

             missing information. Regions 1 and 3 do not have any reported open dumps. 




            The w/STARS database also has the capability to track health hazard information
            for each of the reported open dump sites in Indian country. Health hazard
            information includes the characteristics of each dump site, such as rainfall, site
            drainage, frequency of burning, controlled access, public concern, vertical
            distance to drinking water aquifer, and horizontal distance to surface water bodies
            or homes. This information is used to calculate a site’s health threat score and
            designate a health threat level (i.e., low, moderate, or high) in w/STARS. As of
            April 2010, 207 active open dump sites, or 9 percent of the active open dump
            universe, had “high” health threat levels. The distribution of health threat levels
            for active sites across the EPA regions is shown in table 1 below.




11-P-0171                                                                                              11
                  Table 1: Health threat levels at active sites from the w/STARS database

                                                                                  Total sites
                   EPA region              High      Moderate        Low                               Unknowna
                                                                               with health threat
                    Unspecifiedb               19             40          3                      62             27
                         1                      0              0          0                       0              0
                         2                      3             12          2                      17              0
                         3c                   n/a            n/a        n/a                     n/a            n/a
                         4                      0              0          1                       1              0
                         5                      0              0        162                     162              5
                         6                     58             85        144                     287             41
                         7                      4              8         13                      25              4
                         8                     40             75         59                     174            127
                         9                     17             33      1,224                   1,274             48
                         10                    66             95        162                     323              1
                   Total                      207            348      1,770                   2,325            253
                  Source: IHS w/STARS database, as of April 2010.
                           a
                               The “Unknown” category includes open dump sites without health threat scores.
                           b
                               The "Unspecified" category includes open dump sites that have not been associated
                               to an EPA region within the w/STARS database because of missing information.
                           c
                               Region 3 does not have any federally recognized tribes.



                  EPA is using the incomplete w/STARS database to track progress toward meeting
                  its open dump target. As shown in figure 1, about 3 percent of the reported sites in
                  w/STARS had not been associated to an EPA region because of missing
                  information. Further, table 1 shows that about 10 percent of the active open dump
                  sites (253 sites) do not have a designated health threat level. Regions 5, 8, and 9
                  stated they have completed their initial open dump inventories. However, these
                  regions stated that not all the health hazard information is complete or accurate.
                  The regional and tribal environmental department staff we interviewed also stated
                  that they lack the resources to conduct thorough field assessments or open dump
                  activities tied to this target.

                  EPA also lacks sufficient controls11 to ensure the quality, objectivity, utility, and
                  integrity of open dump data information. For instance, EPA lacks Agency-specific
                  guidance outlining how regions should gather, manage, and utilize these data. The
                  regions we interviewed use IHS guidance to collect and input data into the
                  w/STARS database. However, EPA has not developed its own guidance outlining
                  when the IHS data collection forms should be filled out and updated, who should
                  fill out the forms, which data fields are necessary to collect for EPA’s tracking

11
  The Office of Management and Budget defines internal controls as an integral component of an organization’s
management that provides reasonable assurance that the following three objectives are achieved: (1) effectiveness
and efficiency of operations, (2) reliability of financial reporting, and (3) compliance with applicable laws and
regulations. Internal controls also include the plan of organization; methods and procedures adopted by management
to meet its goals; and processes for planning, organizing, directing, controlling, and reporting on agency operations
(see Office of Management and Budget Circular No. A-123).



11-P-0171                                                                                                          12
                 purposes, and how the Agency should prioritize its open dump efforts given its
                 limited resources. Further, the staff we interviewed stated that the Agency lacks a
                 clear national definition of what constitutes an “open dump,” which has resulted
                 in the regions having different methods for collecting and reporting open dump
                 information.

                 EPA does not have a complete database and sufficient internal data controls to
                 accurately track the status of open dumps. As a result, the Agency cannot
                 determine whether it is collecting open dump data consistently and effectively
                 across the regions, whether cleanup efforts are effective, or whether it is using
                 open dump data to prioritize work and leverage its limited resources. Without
                 accurate and complete open dump information, EPA will be unable to determine
                 the relative environmental and human health risks.

 EPA Does Not Have an Agency-Wide Plan to Provide Solid Waste 

 Management Capacity Assistance 


                 EPA’s role is to help tribal governments develop solid waste management
                 programs and pursue enforcement for specific incidences of illegal dumping. To
                 do this, the Agency provides technical assistance, grant funding, and solid waste
                 management assistance. These activities are provided by EPA regions at the
                 direction of three separate program offices. We found that EPA does not have a
                 national-level process to ensure that program offices and regions are accountable
                 for providing consistent and effective solid waste management assistance for
                 tribes.

                 OSWER’s guidance and strategies12 outline how regions should reach EPA’s
                 strategic plan targets. However, the guidance and strategies do not provide
                 sufficient detail to help regions track and prioritize solid waste work. Moreover,
                 OSWER’s approach does not provide requirements for the way in which EPA
                 should coordinate efforts across program offices or with other federal agencies.
                 Further, OSWER does not have an effective and standardized process to collect
                 and disseminate outreach documents, evaluation tools, and national pilot
                 programs. As a result, EPA has no assurance that it can avoid duplicating efforts
                 or wasting its limited resources.

                 OECA’s Indian Priority directs regions to use compliance assistance to improve
                 the solid waste enforcement capacity of tribes and enforcement to reduce risks
                 from open dumps. However, OECA’s performance measures do not provide
                 regions with guidance on how and when to use specific compliance and
                 enforcement assistance tools and resources to meet these goals. These measures


12
  OSWER has the OSWER Tribal Strategy, issued in 2008; and the Office of Solid Waste and Regional Tribal
Integrated Waste Management Strategy, issued in September 2007. In 2009, the Office of Solid Waste became the
Office of Resource Conservation and Recovery, which is located within OSWER.


11-P-0171                                                                                                  13
                 only hold regions responsible for the number of activities conducted. OECA does
                 not have any outcome measures to hold regions accountable for achieving results.
                 Varying levels of staff technical expertise or resources to analyze and pursue
                 enforcement options may further impact the consistency of waste investigations
                 and results. As a result, OECA cannot ensure that tribes have the opportunity to
                 access a consistent and effective range of assistance across regions.

                 While most of EPA’s tribal solid waste program activities are provided by
                 OSWER, AIEO, through GAP, manages the primary source of EPA funding for
                 tribal capacity building. However, AIEO does not have sufficient guidance13 and
                 systems in place to ensure that GAP funding is consistently and effectively used
                 among the regions for building solid waste capacity. For instance, AIEO lacks
                 sufficient guidance for how GAP staff should coordinate with OSWER program
                 staff to ensure that resources are used consistently and effectively to achieve
                 Agency targets. Further, the staff we interviewed stated that AIEO follows the
                 Annual Commitment System dates, but AIEO does not have the responsibility of
                 setting or projecting targets for solid waste activities. Without sufficient oversight
                 and internal controls, EPA cannot determine whether the GAP funding used for
                 solid waste activities is effective in developing solid waste management capacity
                 in Indian country.

                 Without an Agency-wide plan, EPA’s efforts will continue to result in poor
                 coordination and limited oversight, and may lead to an inefficient use of
                 resources. Lack of internal management controls further limits the Agency’s
                 ability to hold specific program offices accountable for achieving and tracking
                 outcomes. Until EPA develops an Agency-wide plan to provide solid waste
                 management activities, the Agency cannot ensure its efforts are consistent or
                 effective.

Conclusions

                 Incomplete measures prevent EPA from determining whether its efforts are
                 developing the necessary solid waste management capacity to prevent open
                 dumps in Indian country. EPA’s lack of internal data controls prevents the
                 Agency from effectively tracking and prioritizing open dumps with the highest
                 environmental and health risks. Finally, EPA does not have a single Agency-wide
                 plan that collectively defines the implementation roles and oversight
                 responsibilities of the EPA program offices and regions. As a result, EPA cannot
                 determine whether it is providing consistent or effective solid waste management
                 assistance activities in Indian country to reduce the public health and
                 environmental risks posed by open dumps.

13
  AIEO has issued the following GAP guidance to headquarters and regional solid waste and tribal staff and the
National Indian Work Group: (1) Implementation of Solid and Hazardous Waste Activities under the Indian
Environmental General Assistance Program, issued June 2001; (2) National Program Recommendations for Use of
GAP Funds for Implementation Activities, issued June 2001; and (3) Indian General Assistance Program 2006
Grant Administration, issued February 2006.


11-P-0171                                                                                                  14
Recommendations

            We recommend that the Deputy Administrator:

                   1.	 Develop and implement an Agency-wide plan for providing consistent
                       and effective tribal solid waste management capacity assistance that is
                       within the scope of EPA’s authority and responsibility.

                   2.	 Require that the Agency-specific plan include:

                          a.	 Descriptions of the roles and responsibilities for the EPA
                              program offices and EPA regions conducting solid waste
                              management capacity assistance activities in Indian country.
                          b.	 Identification of the Agency resources required for providing
                              solid waste management assistance activities.
                          c.	 Performance measures, including both output and outcome
                              measures, to track whether its assistance is consistent and
                              effective in developing solid waste management capacity and
                              reducing risks from open dumps in Indian country.
                          d.	 Internal controls to ensure consistent data collection and
                              consistent provision of waste management capacity assistance
                              to tribal clients nationwide.
                          e.	 A process to ensure coordination between EPA program offices
                              and regions.
                          f.	 A timeline specifying when the activities and outcomes
                              outlined in the plan are expected to be accomplished.

Agency Comments and OIG Evaluation
            The Agency disagreed with our first recommendation. EPA stated that the OIG
            had assessed the Agency’s programs in isolation from the significant efforts
            conducted by the IHS. EPA said IHS has the primary authority and significant
            responsibilities to assess and close open dumps. We agree that IHS is considered
            the lead federal agency under the Open Dump Act. However, the Agency
            misinterpreted our conclusion and recommendation. We have reworded the
            recommendation, requesting that EPA develop an Agency-wide plan that falls
            within the scope of EPA’s authority and responsibility.

            The Agency also rejected all but two of the actions listed in our second
            recommendation. EPA agreed to identify resources required for providing solid
            waste assistance (subpart b), and agreed to improve program office coordination
            as necessary (subpart e). However, EPA rejected recommendations aimed at
            improving data collection, outcome measures, and internal management controls.
            These recommendations will remain unresolved until the OIG and EPA can reach
            agreement. The Agency’s detailed response with the OIG’s evaluation is provided
            at Appendix A.


11-P-0171                                                                                  15
                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                          POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                       BENEFITS (in $000s)

                                                                                                              Planned
    Rec.    Page                                                                                             Completion   Claimed    Agreed To
    No.      No.                          Subject                           Status1     Action Official         Date      Amount      Amount

     1       15     Develop and implement an Agency-wide plan for             U       Deputy Administrator
                    providing consistent and effective tribal solid waste
                    management capacity assistance that is within the
                    scope of EPA’s authority and responsibility.

     2       15     Require that the Agency-specific plan include:            U       Deputy Administrator
                      a.     Descriptions of the roles and
                             responsibilities for the EPA program
                             offices and EPA regions conducting solid
                             waste management capacity assistance
                             activities in Indian country.
                      b.     Identification of the Agency resources
                             required for providing solid waste
                             management assistance activities.
                      c.     Performance measures, including both
                             output and outcome measures, to track
                             whether its assistance is consistent and
                             effective in developing solid waste
                             management capacity and reducing risks
                             from open dumps in Indian country.
                      d.     Internal controls to ensure consistent data
                             collection and consistent provision of
                             waste management capacity assistance to
                             tribal clients nationwide.
                      e.     A process to ensure coordination between
                             EPA program offices and regions.
                      f.     A timeline specifying when the activities
                             and outcomes outlined in the plan are
                             expected to be accomplished.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




11-P-0171                                                                                                                                  16
                                                                                   Appendix A

            Agency Comments and OIG Assessment
                                       December 6, 2010

MEMORANDUM

SUBJECT: 	 Response to the Office of Inspector General Draft Evaluation Report: “EPA
           Needs an Agency-Wide Plan to Provide Consistent Tribal Solid Waste
           Management Capacity Assistance,” Project No. OPE-10-0002

FROM: 	       Robert Perciasepe
              Deputy Administrator

TO:	          Jeffrey K. Harris
              Director for Program Evaluation, Cross Media Issues
              Office of Program Evaluation
              Office of Inspector General

       Thank you for the opportunity to comment on the draft evaluation report of September
24, 2010, entitled “EPA Needs an Agency-Wide Plan to Provide Consistent Tribal Solid Waste
Management Capacity Assistance,” Project No. OPE-10-0002 (“Draft Evaluation”). On behalf of
the Environmental Protection Agency (EPA or Agency), I want to thank the Office of Inspector
General (OIG) for its suggestions for improving the Agency’s efforts regarding tribal solid waste
management programs, including compliance assurance and enforcement activities.

        We appreciate the attention that the OIG has placed on evaluating the Agency’s current
solid waste management and compliance assurance and enforcement programs in Indian country.
The Draft Evaluation correctly notes the numerous waste management challenges that tribes
face, including the lack of waste management infrastructure and the economic resources to
sustain adequate waste collection and removal programs. Thus, many tribes have experienced
significant open dumping issues.

        It is important to take note of the fact that EPA has in place a strategy for improving
waste management in Indian country (Office of Solid Waste (OSW) and Regional Tribal
Integrated Waste Management Strategy, September 10, 2007.) To supplement that strategy, we
agree that the Agency’s efforts would benefit from additional, specific, planning activities that
are national in scope to ensure programmatic consistency and effectiveness. However, we have
an overarching concern that the Draft Evaluation has examined EPA’s efforts and responsibilities
regarding tribal solid waste management programs in isolation from the significant efforts of
other federal agencies. In particular, the Indian Health Service (IHS) has authority and
significant responsibilities to assess and close open dumps, and to assist in funding the
construction and operation of solid waste facilities. Although EPA has provided valuable
technical assistance to tribes through grants for integrated waste management planning, hosting
national and regional meetings to provide training and hired circuit riders who provide on-site


11-P-0171                                                                                    17
advice, the Agency does not have similar broad authorities for assisting construction and
operation of solid waste facilities in its support role to IHS, and has limited funding and
enforcement authorities for closing open dumps. This consequently constrains the Agency’s
efforts in this area. Thus, we believe it would be helpful for the OIG to more fully describe and
consider the complexities that exist as these programs are implemented. The Agency also
commits to identify and clarify EPA authorities for implementing solid waste management
programs in Indian country. We have responded to the specific recommendations below. We
have also included an attachment intended to correct and clarify certain elements of the Draft
Evaluation.
 OIG Response: The objective and scope of our review was to determine the effectiveness of
 EPA activities to develop tribal solid waste management capacity and eliminate open dumps.
 We evaluated EPA’s responsibilities under RCRA and GAP, as well as the specific efforts
 and responsibilities that support IHS under the Open Dump Act. Our report recommends
 actions that will improve EPA’s contributions to the significant efforts of other federal
 agencies.

OIG Recommendation 1: “Designate a program office to develop a national plan for
providing consistent and effective tribal solid waste management and enforcement
services.”

         Response: Because we have an important role with respect to solid waste issues in Indian
country, EPA commits to: 1) continue to implement its strategy (as noted earlier) for improving
waste management in Indian country and 2) initiate the national planning activities discussed in
this memorandum that are within its purview, taking into consideration the resources that are
available to build tribal solid waste program capacity and enforce federal environmental laws in
Indian country. Given the complex nature of the legal and jurisdictional issues arising among
federal, tribal, and state entities, the focus of the Agency’s national planning activities will be on
the evaluation of established measures, internal controls, internal Agency coordination, and
clarification of funding authority under the Indian General Assistance Program (GAP). These
activities are distinct from the actions of federally recognized Indian tribes (tribes), tribal
members, non-tribal members and other federal agencies, particularly IHS. The Office of Solid
Waste and Emergency Response (OSWER) and the Office of International and Tribal Affairs
(OITA) will be the lead program offices for coordinating these national planning activities
among OSWER, OITA, the Office of Enforcement and Compliance Assurance (OECA), other
EPA offices, the Regions, and other federal agencies.

         While we recognize the benefits of developing a national plan that would address solid
waste management and enforcement activities in Indian country, we do not concur with the Draft
Evaluation’s recommendation that EPA develop a national plan that would include the actions
listed in the other recommendations. Although EPA recognizes that it has an important role in
supporting the resolution of solid waste issues, EPA is not the lead Federal Agency for the issue
of unaddressed solid waste problems in Indian country and cannot accept the responsibility for
completion of a comprehensive national plan to address those issues. Specifically, IHS, pursuant
to the Indian Lands Open Dump Cleanup Act of 1994 (Open Dump Act), has specific authority
to provide financial and technical assistance to Indian tribes and Alaska Native entities to close



11-P-0171                                                                                         18
open dumps ; currently the IHS database shows that there are approximately 3,400 open dumps
nationwide. In addition, the Open Dump Act requires IHS to develop an inventory of all open
dump sites on Indian lands and Alaska Native lands, and report to Congress annually on the level
of funding needed to effectively close or bring into compliance all such open dumps. (See 25
U.S.C. § 3903(4)(b).) Furthermore, under the Indian Sanitation Facilities Act, 42 U.S.C. §
2004(a), IHS is authorized to construct solid waste sanitation facilities, establish utility
organizations, and fund the operation and maintenance of solid waste facilities. EPA’s role
regarding these activities is more limited and is primarily to assist IHS in their efforts in the
assessment of open dumps. Thus, if a national plan were to be produced regarding the provision
of tribal solid waste management services, we believe that it should be through an interagency
effort led by IHS with EPA as a participant and contributor. We will engage further with IHS, as
well as other federal agencies, and will convene an interagency senior level meeting to discuss
how EPA and the other federal agencies can work in concert to address solid waste issues on
Indian lands.

OIG Response: The Agency interpreted our recommendation to develop a “national plan”
as being outside the scope of EPA’s authority and responsibility. We believe the Agency
interpreted this recommendation as meaning that EPA should take the primary responsibility
to create a national plan that all federal agencies would abide by when addressing solid
waste issues in Indian country. This recommendation was intended to be specific to EPA and
within the scope of EPA’s authority. We are recommending that EPA develop and
implement a unified agency plan that would apply to all EPA program offices and EPA
regions responsible for solid waste management capacity and enforcement in Indian country.

We believe EPA is responsible for addressing this recommendation because EPA has
developed Agency strategies and priorities for waste management and compliance
assistance. EPA also reports achievements under GPRA goals for the variety of activities
provided to tribes that lead to dump closure. RCRA Subtitle D also provides EPA with two
enforcement authorities to address open dumps, and the Agency can assist tribes in
developing solid waste programs under their own tribal sovereignty. Further, EPA provides
tribes with funding to develop and implement solid and hazardous waste programs under
GAP.


OIG Recommendation 2a: “Implement a national plan that includes resources required to
provide solid waste management and enforcement services and designate the source of
those resources.”

Response: The Agency will identify the resources available within EPA, and the sources of
these resources to build tribal solid waste program capacity and enforce federal environmental
laws within RCRA’s statutory framework. This effort will be conducted in parallel to the
ongoing efforts of OITA to revise the GAP guidance and distribution process to place more
emphasis on tribes’ prior progress, environmental capacity needs, and long-term goals. (See
“Framework for Developing Tribal Capacity Needed in the Indian General Assistance Program
Report,” No. 08-P-0083, February 19, 2008.) The Agency recognizes that tribes receiving GAP
funds are given the ability to spend these funds on capacity building that can include solid and



11-P-0171                                                                                     19
hazardous waste activities specific to their individual environmental priorities. Further, as the
authorizing statute allowed, tribes may use GAP funds for purposes or programs that “include
the development and implementation of solid and hazardous waste programs for Indian lands.”
Under Report No. 08-P-0083, the Agency is revising the GAP Administration Guidance and
intends to include additional guidance specifying the solid waste management activities that can
be funded.

OIG Recommendation 2b: “Implement a national plan that includes output and outcome
measures linked to intended results.”

Response: The Agency agrees that the tribal program performance measures should be linked to
the intended results and believes that the existing measures are consistent with this goal. The
Agency, however, will evaluate and analyze the current measures to see if any additional or
different measures are needed in this regard.

        The Agency, however, disagrees with certain elements in the Draft Evaluation’s finding
leading up to this recommendation, because we believe the current Indian country measures are
linked to the intended results and do show results. For example, OECA’s Indian Country Priority
compliance/technical assistance measure is a capacity development outcome measure. Activities
underlying this measure emphasize two things: (1) compliance and technical assistance for
developing tribal integrated waste management plans with enforceable codes aimed at deterring
illegal dumping and open burning of wastes; and (2) helping tribes understand how to comply
with RCRA. Likewise, assistance to tribes from OSWER and OITA for the development of
integrated waste management plans also is a capacity development function. An increase in the
number of tribes with integrated waste management plans, as reported through the Annual
Commitments System, is evidence that EPA’s assistance is achieving its intended results.
Through the end of FY 2010, 117 tribes have established integrated waste management plans
which meet the Agency’s definition under the GPRA goal. Moreover, the current EPA guidance
regarding this measure generally addresses the tribal program areas which the Draft Evaluation
highlights as aspects of a successful tribal program.

        Also, we would note that EPA’s enforcement actions are not intended to build tribal
capacity, but to compel clean-up or closure as necessary at a specific facility. By definition,
hazards are reduced when open dumps are upgraded or closed, whether or not the hazard or
exposure reduction is quantified. The cost to calculate reduced hazard and exposure for each site
cleaned up, closed or upgraded would divert limited resources from enforcement actions that
actually address open dumps. EPA believes that the number of cleaned up, closed or upgraded
open dumps is a useful and appropriate proxy for quantification of reduced hazard (under the
current GPRA goal, 565 open dumps have been reported as cleaned up, closed or upgraded since
the beginning of FY 2007). The Agency developed its current measures recognizing the
limitations of its authority. The further analysis of measures also will recognize these limitations,
as well as the need to ensure the measures and goals are quantifiable, measurable, and within
EPA’s control.




11-P-0171                                                                                        20
  OIG Response: To determine the achievement of Agency goals, EPA needs outcome
  measures to track whether EPA’s assistance is effectively developing the necessary solid
  waste management capacity in Indian country to prevent and reduce the risks from open
  dumps. Based on the Agency’s response, EPA is currently relying on output measures as
  proxies for outcome measures to determine whether its efforts are effective. We found little
  connection between the outputs provided and the outcomes claimed by the Agency. For
  example, OSWER is counting the number of waste management plans adopted by tribes,
  regardless of how effectively the tribes are implementing those plans. The Agency states that
  this OSWER measure is also sufficient to capture how compliance assistance contributes to
  tribes’ development of enforceable codes, which is just one element of a waste management
  plan. However, OECA output measures only count the number of tribes “reached” through
  compliance assistance and the number of enforcement investigations (defined as outreach to
  tribes) conducted. Without additional outcome measures, it is unclear how the Agency can
  determine that compliance assistance leads to enforceable codes, or determine what portion
  of the achievements claimed under OSWER’s plan measure are actually attributable to
  OECA’s efforts.

  OSWER also counts the number of cleaned up, closed, or upgraded open dumps without
  determining whether tribes have developed the management capacity to prevent new open
  dumps from occurring or prevent former dumps from reappearing. The Agency believes that
  OSWER’s open dump closure measure is a sufficient proxy for quantification of reduced
  hazard as a result of enforcement. However, OSWER’s measure does not capture how
  OECA investigations and enforcement actions directly contribute to or are linked to open
  dump closures.

  The Open Dump Act directed EPA to work cooperatively with IHS in maintaining the open
  dump database (i.e., w/STARS), which should be instrumental in quantifying the open dump
  problem in Indian country. We do not believe, however, that OSWER’s open dump closure
  measure ensures that these efforts are building solid waste management capacity in Indian
  country or that these efforts are aligned with the Agency’s resources. As a result, we
  continue to believe that EPA needs to reevaluate and develop appropriate measures that are
  in alignment with the Agency’s authority, activities, and resources.

OIG Recommendation 2c: “Implement a national plan that includes internal controls to
ensure consistent data collection and services to tribal clients nationwide.

Response: The Agency agrees with the Draft Evaluation’s statement that internal controls are
important, and commits to determining whether additional internal controls are necessary. For
example, EPA will determine whether any additional information is needed beyond the existing
IHS protocols and the detailed survey form used to assess open dumps and enter data regarding
open dumps into the IHS data system. We believe that the concern underlying this
recommendation is that the assessment of open dumps is ongoing and incomplete. For example,
many open dumps that are listed in the database have not received a full assessment or had an
assessment prior to the development of the current database and the associated protocols. In both
cases, the data pertaining to those sites will remain incomplete pending a new assessment. IHS,
in cooperation with EPA, is responsible for conducting these assessments. However, the Agency



11-P-0171                                                                                     21
also will provide clarification on what constitutes an open dump for the purpose of EPA’s entries
into the IHS data system and the strategic measure.

        EPA disagrees, however, with the specific references to inconsistent data collection
pertaining to open dumps. The inventory of open dumps maintained by IHS includes specific
guidance for analyzing and inputting data based on multiple risk factors. EPA, through a
cooperative agreement with IHS, assists with data input and does so according to the IHS
guidance. The Agency will continue its efforts to work with IHS and individual tribes to conduct
assessments of open dumps in Indian country, and to collect the associated data.

        An example of where the Agency’s current internal controls are in place is within OECA.
OECA sets national policies for, and establishes measures related to providing compliance
assistance, conducting compliance monitoring (e.g., investigations), and pursuing appropriate
enforcement in Indian country. Under the solid waste focus area of EPA’s National Compliance
Assurance and Enforcement Priority, OECA developed compliance assistance and investigation
measures as benchmarks for undertaking specific activities to improve compliance with RCRA,
build tribal solid waste capacity, and identify whether an enforcement action is the appropriate
approach to addressing specific incidents of illegal dumping. At midyear and end of year from
fiscal year (FY) 2008 - 2010, OECA received a report from each Region containing results for
each measure.

        EPA also does not agree that either the Draft Evaluation’s background information or its
recommendations support the conclusion that the lack of “national internal controls” has led to
“poor conditions” in Indian country, “limited oversight” by Agency officials, or the “ineffective
use of resources.” In fact, the Draft Evaluation does not make a finding that the Agency's use of
resources has been ineffective in improving a tribe’s waste management capacity or reducing the
risks posed by open dumps.

OIG Response: The Agency lacks internal controls that include (1) an Agency-wide plan
that defines missions and responsibilities, goals, and objectives; (2) processes for planning,
organizing, directing, and controlling program operations; and (3) systems for measuring,
reporting, and monitoring program performance.

EPA is using the incomplete w/STARS database to track the Agency’s open dump closure
measure. While we recognize that the database is not static, our primary concern underlying
this recommendation is that the Agency lacks plans, processes, systems, or other related
internal controls to manage these data. EPA needs specific procedures outlining when the IHS
data collection forms should be filled out and updated, who should fill out the forms, which
data fields are necessary to collect for EPA’s tracking purposes, and how the Agency should
prioritize its open dump efforts given its limited resources. EPA does not have these controls
in place and cannot determine whether it is using its resources to collect the open dump data
consistently and effectively nationwide. Without this information, EPA cannot ensure its
efforts are developing solid waste management capacity and reducing risks in Indian country.




11-P-0171                                                                                        22
 In addition, OECA’s national policies lack the internal controls to ensure regional
 accountability for providing access to a consistent range of solid waste codes and enforcement
 assistance. For instance, the varying technical expertise of EPA staff and resources across the
 EPA regions impacts the availability of assistance provided to tribes. Further, OECA’s
 measures cannot be used as sufficient internal controls. Specifically, OECA’s assistance
 measures only hold the Agency responsible for counting the number of tribes “reached” and
 the number of waste investigations conducted by the Agency. However, these measures do
 not provide the Agency with a plan, processes, or systems for how the Agency should provide
 consistent and effective compliance and enforcement assistance to achieve the intended
 results.

 Finally, we did not report that “the lack of ‘national internal controls’ has led to ‘poor
 conditions’ (emphasis added) in Indian country. Our “At a Glance” section states, “The lack
 of a single plan results in poor coordination (emphasis added) and limited oversight, and
 may lead to an ineffective use of resources.” With regard to oversight and efficiency, we refer
 to the body of this response above to support EPA’s need for more effective measures and
 internal controls (i.e., oversight methods). Further, if EPA does not have effective measures
 and internal controls in place, the Agency cannot assure that it is using its resources as
 effectively as possible.


OIG Recommendation 2d: “Implement a national plan that includes a process to ensure
coordination between EPA program offices and regions.”

Response: The Agency believes that the numerous existing coordination activities, including
regular meetings, conference calls and personal contacts, are effective. However, we also believe
that improvements always can be made, and as a component of these planning activities, the
Agency will examine its existing internal coordination efforts and make any necessary changes
and improvements.




11-P-0171                                                                                      23
 OIG Recommendation 2e: “Implement a national plan that includes a specific timeline
 within which outcomes are expected to be accomplished.

 Response: The Agency proposes the following timeline:

Consistent with the Agency’s response outlined above,             FY 2011 – 2012
OSWER and OITA will be the lead program offices for
coordinating the national planning activities to:
    1. Identify and clarify EPA authorities for implementing
        solid waste management programs in Indian country.

    2. Identify the internal EPA resources and their respective
        sources available to build tribal solid waste program
        capacity and enforce federal environmental laws within
        RCRA’s statutory framework;

    3. Review the ongoing GAP Administration Guidance
       revision effort to insure correlation with the national
       planning activity efforts described in this response;


    4. Analyze EPA’s current performance measures and
       evaluate the need for additional or different
       performance measures to ensure linkage to the desired
       results;

    5. Re-examine the existing internal EPA controls to ensure
       consistent data collection and provide additional
       information to the Regions regarding the assessment of
       open dumps which have not received an assessment
       under the recent IHS protocols;

    6. Clarify what constitutes an open dump for the purpose
       of EPA’s entries into the IHS data system and the
       strategic measure; and

    7. Examine EPA’s existing internal coordination efforts
       and make any necessary changes and improvements.
The Agency will implement the results of these national           FY 2012 – 2013
planning activities as necessary.


OIG Response: EPA’s corrective action plan will need to commit to an Agency-specific
national-level plan with the elements and internal controls outlined in the recommendations,
as well as a timeline for its design and implementation.




 11-P-0171                                                                                     24
                                                                            Appendix B

                                    Distribution
Office of the Administrator
Assistant Administrator for Enforcement and Compliance Assurance
Assistant Administrator for International and Tribal Affairs
Assistant Administrator for Solid Waste and Emergency Response
Regional Administrator, EPA Region 5
Regional Administrator, EPA Region 8
Regional Administrator, EPA Region 9
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, American Indian Environmental Office
Audit Followup Coordinator, Office of the Administrator




11-P-0171                                                                          25
